MEMORANDUM FOR: EMILY STOVER DeROCCO
                Assistant Secretary for
                 Employment and Training




FROM:                     ELLIOT P. LEWIS
                          Assistant Inspector General
                           for Audit

SUBJECT:                  Audit of Kentucky Workforce Development Cabinet’s
                          ADP/IT Central Services Costs Charged to U.S. DOL Grants
                          During the Period July 1, 1996 through June 30, 2000
                          Final Audit Report 03-04-005-03-315

DATE:                     July 16, 2004

The Office of Inspector General (OIG) has completed an audit of the automatic data
processing and information technology (ADP/IT) central services costs charged to
Department of Labor grants awarded to Kentucky’s Workforce Development Cabinet,
Department for Employment Services (WDC/DES). Our objective was to determine whether
such costs were reasonable, allowable, and properly allocable under the Federal cost
principles set forth in Office of Management and Budget (OMB) Circular A-87 for State
Fiscal Years (SFYs) 1997 through 2000.

We initially determined that Kentucky’s State-Wide Cost Allocation Plan (SWCAP) did not
contain documents required by Federal cost principles for billing ADP/IT central services
costs to Federal grants. However, following receipt of our draft audit report, officials from
the Kentucky Office of the State Controller provided the required documents. We concluded
that these additional documents complied with Federal cost principles requirements for
charging ADP/IT central services costs to U.S. Department of Labor (DOL) grants.
Therefore, our report does not contain any conditions that warrant corrective action.

Background

Kentucky’s WDC/DES, procures its computer mainframe ADP/IT central services from the
Governor’s Office of Technology (GOT). GOT is a service bureau providing ADP/IT
central services to all agencies and departments of the executive and legislative branches of
the Kentucky State government. GOT uses a chargeback system to recover its operating
costs. GOT periodically prepares reconciliations between its budgeted and actual costs, and
refunds any over-billings to user agencies. During SFYs 1997 through 2000, GOT charged a
total of $12,447,021 in ADP/IT central services costs to WDC/DES, of which $10,008,625
was charged to DOL grants. Tichenor & Associates, LLP, under contract to the DOL, OIG,
performed an audit of these ADP/IT central services costs charged to DOL grants.

Scope and Methodology

We audited the ADP/IT central services costs charged to DOL grants administered by
WDC/DES in SFYs 1997 through 2000.

During our fieldwork our data requests were not always responded to in a timely manner.
Therefore, we utilized alternative auditing procedures to achieve our audit objectives. We
interviewed GOT officials and reviewed and documented Kentucky’s SWCAPs for SFYs
1997 through 2000. We did not test the process GOT uses to accumulate the cost, allocate
indirect cost, and bill programs. We did interview GOT officials to determine how
expenditures charged to the DOL grant programs were recorded in the accounting system.
We reviewed the year-to-date Monthly Management Budget analysis by program, and
verified that costs were properly charged to the correct programs. We analyzed and
scheduled all charges posted by WDC/DES for SFYs 1997 through 2000 for direct sub-
objective 270, Computer Services, and sub-objective 508, Indirect Operating Expense, to
identify all ADP/IT central services costs. We selected a judgmental sample of salaries to
verify that they were properly charged through the accounting system to the correct programs
for June 1999 activity. We did not perform an analysis of over/under billings; we only
determined the billings were adjusted to actual costs for the years we audited.

Also, we wanted to determine if there was an overall decrease in the utilization of the
ADP/IT central services by State agencies for SFYs 1997 through 2000. Although GOT
officials were not able to provide the usage and cost information by agency, we performed a
utilization analysis by analyzing the actual units sold by function codes reported in the Cost
Allocation Reconciliation for SFYs 1997 through 2000. We also examined GOT’s ADP/IT
central services costs using GOT’s Over/Under Recovery Reports for SFYs 1997 through
2000. No further analysis was necessary since the costs appeared reasonable.

Our audit was performed in accordance with applicable standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards
issued by the Comptroller General of the United States.

The audit fieldwork for this engagement was conducted at WDC/DES and GOT offices in
Frankfort, Kentucky, during the period September 2001 through January 2002. We held an
exit conference with GOT and WDC officials on January 29, 2002.




DOL/OIG Audit Report 03-04-005-03-315          2
Audit Results

At the beginning of our fieldwork at GOT we requested the Central Services Cost Allocation
Plans (CSCAPs) covering its ADP/IT central services costs for SFYs 1997 through 2000.
We were provided a document entitled the “State and Local Governments Cost Allocation
Agreement.” WDC/DES officials referred to this document as Kentucky’s SWCAP, another
name for the CSCAP. Although we found that Kentucky’s SWCAP included ADP/IT central
services costs, it did not provide the specific OMB Circular A-87 requirements for charging
ADP/IT central services costs to federal grants. Accordingly, we concluded that GOT
ADP/IT charges to DOL grants failed to meet the mandatory requirements set forth in OMB
Circular A-87, and were therefore unallowable. We reported this in our July 2003 draft audit
report to WDC/DES.

Auditee Response and Auditor's Conclusion

In response to our draft report, WDC/DES officials disagreed with our conclusion that
GOT’s ADP/IT central services had not been included in the Kentucky SWCAP. The
response stated that the Kentucky Finance and Administration Cabinet, Office of the State
Controller prepares and submits the SWCAP each year for approval to the U.S. Department
of Health and Human Services’ (DHHS).

As a result of WDC/DES’ response, we met with a DHHS Division of Cost Allocation
official to discuss OMB Circular A-87 requirements for charging ADP/IT central services
costs to Federal grants. This official stated he agreed with WDC/DES that GOT’s ADP/IT
central services costs were included in the Kentucky SWCAP and this would be acceptable
as long as there was evidence to support the specific requirements in OMB Circular A-87
and the implementing guidelines published by DHHS in ASMB C-10.

We reviewed documents submitted by the Office of the State Controller and then concluded
that all the required documents were prepared and approved timely and that variances
resulting from the differences between the approved billing rates and the actual expenditures
were adjusted in accordance with the terms in the SWCAP.

If you have any questions concerning this report, please contact Michael T. Hill, Regional
Inspector General for Audit, in Philadelphia at (215) 446-3710.




DOL/OIG Audit Report 03-04-005-03-315         3
                                             APPENDIX




                        AUDITEE’S RESPONSE




DOL/OIG Audit Report 03-04-005-03-315   4
DOL/OIG Audit Report 03-04-005-03-315   5
DOL/OIG Audit Report 03-04-005-03-315   6
DOL/OIG Audit Report 03-04-005-03-315   7
DOL/OIG Audit Report 03-04-005-03-315   8
DOL/OIG Audit Report 03-04-005-03-315   9
DOL/OIG Audit Report 03-04-005-03-315   10
DOL/OIG Audit Report 03-04-005-03-315   11
DOL/OIG Audit Report 03-04-005-03-315   12
DOL/OIG Audit Report 03-04-005-03-315   13
DOL/OIG Audit Report 03-04-005-03-315   14
